IN THE SUPREME COURT
OF THE UNITED STATES
OCTOBER TERM 2020

No.

JIN HUANG ZHENG,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.
PROOF OF SERVICE
Depositor states as follows:
That on $ August, 2020, the Petition for Writ of Certiorari
in the above entitled case was deposited in the MCC Chicago legal
mail system with first class postage prepaid, properly addressed
to the Clerk of the Supreme Court of the United States and within
the time allowed for filing said Petition for Writ of Certiorari.
That an additional copy of the Petition and Motion to Proceed
In Forma Pauperis were served on counsel for Respondent.
Solicitor General of the United States
Department of Justice
Washington, D.C. 20530
Dated at Chicago, Illinois this 5th day of August 2020.
Respectfully submitted,

Jin Huang Zheng C
USM No .^2564-028
Metropolitan Correctional Center
71 W. Van Buren St.
Chicago,.IL 60605

